                     AUDIT OF AN EARLY DEFAULTED LOAN TO

                [
                                                                 ]

                                 AUDIT REPORT NO. 0-12 


                                        March 28, 2000 





The finding in this report is the conclusion of the OIG's Auditing Division based on testing of tile
auditee's operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up aod resolntioa.
This report may contain proprietary information subject to the provisioDS of 18 USC 1905 and mut
not be released to the public or another agency without permission of the Office of Inspector
General.
.. 

                                U.S. SMALL BUSINESS ADMINISTRATION 

                                    OFFICE OF INSPECTOR GENERAL 

                                         Washington, DC 20416 





                                                                                AUDIT REPORT
                                                                           ISSUE DATE:
                                                                           MARCH 28. 2000
                                                                           REPORT NUMBER: 0-12


        To:
                       £.
                      Sandra Sutton, District Director
                             Ana District Office       .


       From:          Robert  se~istant
                       For Auditing
                                                   Inspector General


       SUbject:       Audit of an' Early Defaulted Loan to
                       (            ex·4                          J
              Attached is a copy of the subject audit report. The report contains one finding and
       two recommendations addressed to your office. Your comments have been synopsized
       and included in the report. Your comments indicate that you agree with the audit results.
       and recommendations. The lender did not provide a response to the draft audit report.

               We have referred this matter to our Office of Investigations for appropriate
       followup. Since this report may contain proprietary information subject to the provisions
       of 18 USC 1905 and might comprise possible investigative work, the contents must not
       be released to the public or another agency without permission of the Office ofinspector
       General.

               The recommendations are subject to review and implementation of corrective
       action by your office in accordance with the existing Agency procedures for follow-up.
       Please provide your management responses to the recommendations using the attached
       SBA Forms 1824, Recommendation and Action Sheet. Any questions or discussions of
       the issues contained in the report shloud be directed to Garry Duncan at 202-205-7732.



       Attachments
n'




                                                     AUDIT OF
                                             EARLY DEFAULTED LOAN TO
                                                         ey.4                                                       l


                                                     TABLE OF CONTENTS



     Background... ..................................................................................................................... 1

     Audit Scope and Objective ................................................................................................. 1

     Results of Audit ................................................................................................................. 1

     Finding and Recommendations

        The Lender and Borrower did not Follow Loan Origination Guidelines ....................... 1 



     APPENDICES

               A- Management Response
               B- Audit Report Distribution
                                         BACKGROUND

       The Small Business Administration (SBA) is authorized under section 7(a) of the
Small Business Act to provide financial assistance to small businesses in the fonn of
government guaranteed loans. SBA guaranteed loans are made by participating lenders
under an agreement (SBA Form 750) to originate. service, and liquidate loans in
accordance with SBA rules and regulations.

        In C_E" A J First Union Small Business Capital (formerly The Money Store)
(lender) approved loan number c:           -E.>. . 4                                        _       -:J.
(borrower). The $628,000 loan was processed under Preferred Lender Program (PLP)
procedures for a borrower to complete a C                     <;;;>< -4-               ~ CA. The
purpose of the loan was to make leasehold improvements, pay construction and
performance bond costs, purchase business machinery and equipment, and provide
working capital. SBA provided the lender with a guarantee of75 percent of the loan
amount, and the owner of the business, [             €'/(. (p            1 guaranteed the loan. The
borrower sold the business in [/3-><. '-f' and defaulted on the loan in L {')t,' L\               J
without notifying the lender that the business was sold. SBA purchased the 75 percent loan
guarantee in April 1998.

                              AUDIT SCOPE AND OBJECTIVE

        This report provides the conclusions of an audit of a SBA guaranteed loan. The '
loan was judgmentally selected for review as part of the Office ofInspector General's
ongoing program to audit SBA guaranteed loans charged off or transferred to liquidation
within 36 months of origination (early default).

        The audit objective was to determine if the early loan default was caused by lender
or borrower noncompliance with SBA's requirements. The SBA and lender loan files were
reviewed and district office and lender personnel were interviewed. The borrower's invoices
were analyzed and its building contractor and moving and storage agent were interviewed.
The fieldwork was accomplished between July and October 1999. The audit was conducted
in accordance with Government Auditing Standards.

                                      RESULTS OF AUDIT

Finding The Lender and Borrower did not Follow Loan Origination Guidelines

     Our audit showed that the lender did not comply with SBA requirements for securing
and disbursing the loan. We also found that the borrower made an inaccurate statement on
the loan application and submitted invoices for personal expenses to support loan
disbursements. As a result, SBA lost $479,890 when the defaulted loan guarantee was
purchased.
.   '
        "




            The lender did not comply with SBA loan origination requirements

                    The lender did not adequately secure the loan although the guarantor had sufficient
            assets for full collateralization. The lender also violated SBA requirements by (i)
            reimbursing borrower expenses that were incurred up to 14 months before the loan was
            approved and (ii) not following-up on indicators that the borrower had sold the business.

                    Loan no/adequately secured SBA Standard Operating Procedure (SOP) 50 10 3,
            Chapter 2 requires a lender to obtain adequate collateral to secure a loan to the extent that
            worthwhile assets are available from the applicant. The lender violated this requirement
            when only a C ~., 4 1 valued at $85,000 was used to secure the $628,000 loan. The
            guarantor's personili financial statement listed other assets such as L E'x . 4/ ""         :l
             L                                EX. "'\. / (p                                1 Other lender
            documents indicated the borrower owned \ r                 E~· 4 J The
            lender did not use any of these assets to secure the loan.

                    Lender reimbursed ineligible expenses The Settlement Sheet (SBA Form 1050)
            requires the lender to certifY that disbursement of the loan proceeds was made to reimburse
            the borrower for expenditures made after the loan approval date. Contrary to the
            certification, the lender approved and disbursed $370,428 to the borrower for expenditures
            made up to 14 months before the loan was approved.

                    Lender did notfollow-up on the sale ofthe business The lender did not follow-up
            on numerous indications that the borrower sold his business. Although the business was
            sold in C          ~:x, t-!                        :J the lender reported it was not aware of
            the sale until February 1998. During the audit, we found lender documents that indicated
            the lender learned of the proposed sale of the business several months prior to the loan
            default. For exarnple:
               ~ 	 In June 1997, the lender paid the borrower's Certified Public Accountant $39,976
                   for various services including a service described as "Review Potential Sale of
                   Business".
                ~ 	 InSeptember 1997, the lender's loan service representative faxed a note to the loan
                   officer that the general contractor reported the business had been sold and the
                   borrower was moving out of the country in the next six months.

            Inaccurate borrower statements

                   The borrower's loan application certified that the business was not involved in any
            pending lawsuits. Our audit, however, disclosed that during the loan application and
            approval process the borrower had four pending [ E1i. 4             J lawsuits including:

               ~   A lawsuit filed in ,[ 

                   [~"bl 




                                                          2
                                                                                                  !

                                                                                                      i




         ~    A lawsuit filed in . C
                                                   eX. 4­
             e       ~)(   . '-i-       ]                                               .J
         ~   A lawsuit filed in .[
              [                                     tx.4­
                     <::)1 .   4       J                                                  ]
         ~   A lawsuit filed in [
                                                   cl<."i
             1:       £)(.     '+      :J                                                 J
   Borrower misrepresented payment invoices

          The loan agreement authorized use of loan proceeds to make leasehold
  improvements to the borrower's leased medical office. With each disbursement, the lender
  certified that loan proceeds were used for such authorized pwposes. In addition, the Code
  of Federal Regulations, Title 13 (l3CFR), paragraph 120. 130(e), prohibits the use of
  proceeds for a pwpose that does not benefit the small business. Therefore, use of proceeds
  for personal pwposes were not permitted.

         The borrower employed a general contractor to perform both business and personal
 construction work. The borrower then submitted invoices for reimbursement of business
 expenses that were actually expenses related to remodeling his home and storing personal
 goods. Invoices and canceled checks for the ineligible personal expenses totaled $152,812
 including:


     ~    A bill for reimbursement totaling $117,500 which listed 92 expenditures for
          construction of the borrower's office that were actually personal expenses made
          before loan approval. The general contractor stated that the bill was altered because
          the original invoice was for work performed at the borrower's personal residence.
     ~   An invoice for $18,873 for office construction costs which the general contractor
         stated he had not prepared.

     ~   Five invoices totaling $10, I 03 dated late 1996 and early 1997 for furniture.
         appliances, and other items that were actually delivered to the borrower's residence
         and for plumbing and tile work performed prior to the loan being approved.
    ~     Two invoices totaling $6,336 for moving imd storage costs which the vendor ([" oj- :1
         [     e-x A             .:J) reported consisted of personal items such as linens,
         dishes, living and dining room furnishings, and guns put in storage during the
         remodeling of the borrower's residence.

Impact on tbe SBA guarantee

        We concluded that the lender's non-compliance with SBA loan origination and
disbursement requirements allowed the borrower to obtain loan proceeds that be was
ineligible to receive. Section 120.524 of 13CFR states that SBA is released from liability
on a loan guarantee in whole or in part:



                                              3


                                                                                                  .\
,





              » 	If the lender has failed to comply materially with any of the provisions in the
                 regulations or the loan guarantee agreement.
              » 	If the lender's improper action or inaction placed SBA at risk, SBA is released
                 from the guarantee liability.
             » 	If SBA determines that any of the above events occurred in connection with the
                 loan, SBA is entitled to recover any monies paid after purchasing the
                 guaranteed portion of a loan.

     Recommendations

             We recommend that the Santa Ana District Office take the following actions:

            la. Ensure that the lender repays the SBA guarantee of $479,890 for loan number
            L "'x· '" :Jas required by the November I, 1999 SBA letter.

            I b. Remind the lender of its obligation to comply with SBA regulations, policies,
            and procedures for originating and disbursing loans, particularly in the areas of
            securing loans and reimbursing personal expenses.

     Management Response

             The Santa Ana District Office agreed with the finding and recommendations. The
     District Office issued a letter to the lender on November 1, 1999 formally demanding
     repair of the remaining principal balance for this loan. The District Office will remind the
     lender of its obligation to comply with SBA requirements for originating and disbursing
     loans (see Appendix A).


     Evaluation of Management Response

            The district office comments and actions are responsive to the recommendations.




                                                 4
                                                                                                                Appendix A
     •

                                                     U.S. SMALL BUSINESS ADMINISTRATION 

                                                          200 W. SANTA ANA BLVD. 11700 

                                                              SANTA ANA, CA 92701 





              March IS, 2000
              Kobe" seabrookS          .
              AuiaWlt InspeclOr GefteF'   for Auditing
              Office of the InKpClCIt)r G   I
              WuhinglOn. DC 20416
                                       i
              Reference:
                               c                                                J
              Dear Mr. Seabroob:       ,
                                       i


              We havc reviewed the    d~ft audit repo" received March 2, 2000 reaardina on audit of an early defiaulted
              loan to C       IS x . '-i                          :J and submit the followine response 10 lhe reoulto of the
              audit:
                                       ,i
              mE LENDER AND ~RROWER DID NOT FOLLOW !.OAN ORIGINATION GUIDEI.IN"~­
              We concur with the fin inas of the Office of Inspector General that lender did nol comply wilh 8SA
              rcquiremen.. for securin and dillburslna the loan. Bued upon information obtained during the audit, we
              alII() concur that Borrow/", made: inaccurate statements on Ihe loan application. Alti\oUall we agrt.'C that
              p«IOnal inwi_ were ~bmitted 10 suppo" loan disbursements, II Is DOl clear at this time who pl"l!pllll>d
              the ineli,lble, possibly     dulen&, invoices for disbursement. It appears that SOA will suffer a I""" on the
              defaulted loan if a repair I not paid by lender; however, the exact amount nf 1I11III ill not yet kDowD.
                                       I
              TIlE U:NDER DID NqT COMPLY WITH RRA (,OAN ORIOINATlON REQUlltEMENTS-
              We concur with the tindi\lP of the Office of Inspector General that lender did not take all availilble
              collateral. We also concur that lender may have violated SBA policy by reimbu ... illS barTOwer for expo.......
              incurred fourteen monthsjprior to loan approval and fallin, to follow.up On indicators that bormwur IIOld
              thebuainen.             •
                                           I

              LOAN NOT ADEQUAT.k£ySECURED­
              11 is the opinion of lenderthat the collateral taken toptb... with the character and occupation of bormwer
              fully proteCted the loan. 1I.t default, however. the collateral taken did not adequately protect the loan. We
              concur that lender ahot/ld have taken additional collateral ... required by SRA standard OPt:t"IItinl
              p_,reo ...d I....d.r waIo remi.. failin, 10 de ao.
                                           ,
               I.ENDER RI!IMBUItS::'~~ELlGlBl.B EXPENSES-
              We concur that lender a          d. and disbul"lled 10111\ prc>oee&' for e"pendilUre. made prior Iu loan approval
              date, ih violatinn of the Icertification found on SBA Form 1050, the Settlement SheeL It is not clear.
              however, if S8A policy allOWS fat PLl' lenders 10 approvo such di.buraemcnL, un behalf of the SRA.

              LlJNDER DID NOT3:!£OW ll1'ON THE SALE OF BUSINESS­
                                                      O


              aased llpon the findinp of the audit, lender should ha\le been aware of borrower', lillie of the buainess
              durin. the loan dilbu     t perlucl. The District Office loan tile does not .nntain ermain document. found
               hy the IG lUditor durin, /til in"".liplion In .he Icndet'. fll<. If the lende.. """nrll'.... the Kale, all_vo
               action. should he"" been jlaken 10 i.....re repaymenl of tho loan. If il can be proven !hat lender was aware of
               Ihe sale or impelldina s~, lender could be liable for repair on this issue.

               INACCURATE       RORR~WEJt STATEMENTS-
               We concur that burrower'. application did nOI reveal pendi'1g lawluits or ahy judamenlS.
                                               I
                                               I

                                               ,,I


c:       'd
                                                                                                            Appendix A



           BORROWER MISREPRESENTED PAVMENT INVOICES­
           -   UI"''' 110" ...dh IIn~lias.. _ concur thlU borrower milluscd lo.n proc;ceds fo. ineligible purpnses.

           I.OS!! TOSBA, KF.c~MMENDATIONS and INVESTIGATIVE RIWERRAL-

        We agree with the rec~mendation to repair lender for lhe balance owi,.. on the S8" llwuanleed loan 10
       r {;){. (. ]    An SRA ~dmini.lrative Action w .. approved recommending repair. A demand leller for
        repair w.., aenllO lenderlon or about November I, 1999. I.endor i. reviewing the mauer. We have """t a
        follow up leuer 10 I. . and anticipate a reply by month ond. r                                         (
                                            r."A   eeX,   !>    b                                                           !
       [
                         .-l
                                                            /                                                              _J
       We will remind 1...<1<.... pf Its obliption 10 comply with SBA rellulation., policies and proCedunlll for
       ori,loalinS lind di&bul'lin~ loans.
                                   ,
       We            with the ~1uJ1on thai manera di.MI...... in this report .bould be invealipted by the
               COlleUr
       lJ!vc.,ugativc Dlv;'ion. Oialrict Counsel prevlOltllly. referred thiN loan k) the Office of InapoclOr General for
       criminal investisation unruly 7,1998.

       We appreciate the oppo~nilY 10 reepond 10 the draft audit report. If you or your staff have any questiona
       concerning !his IQIlo, ple8sc fccl free 10 contact Portfolio Manasemen! Team 1.......1nr L C-x,,,         J
       C          9<-1..               J




       Rachel Baranick 

       Deputy D;'!rict Director   !





£ "d
•
    •




                                                                                                 AppendixB


                                      AUDIT REPORT DISTRIBUTION


          Recipient
                                                                                         Number of Copies
         District Director
          Santa Ana District Office ------------------------------------------------___________________ 2

         Deputy Associate Administrator for
          Capital Access-------------___________________________________    --------------------1
         General Counsel ---------------------------------------------------____________--:._ 2

         Associate Administrator for
          Financial Assistance --------------------------------------------____                     __ 1

         Associate Administrator for
          I'ield Operations ----------------------------------------------_____                       1
         Office of ChiefI'inancial Officer
          Attn: Jeff Brown --"-___________________________________
                                                                                     ·----1
         General Accounting Office --------------------------------------_____._ _ _ _ _ _ 1




                                                                                                             \
